Report No. D-2009-066    April 1, 2009




     Marine Corps' Management of the
      Recovery and Reset Programs
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
GWOT                  Global War on Terror
LAV-25                Light Armored Vehicle-25mm
USD(C)                Under Secretary of Defense (Comptroller)
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704



                                                                                       April I, 2009

MEMORANDUM FOR NAVAL INSPECTOR GENERAL FOR MARINE CORPS MATI'ERS
               AUDITOR GENERAL, DEPARTMENT OF THE NAVY
               INSPECTOR GENERAL OF THE MARINE CORPS

SUBJECT: Marine Corps' Management of the Recovery and Reset Programs
         (RepOlt No, 0-2009-066)

We are providing this report for information and use. We considered comments from the Marine
Corps when preparing the final report.

The Marine Corps comments on the draft report conformed to the requirements ofDoO Directive
7650.3 and have left no unresolved issues. Therefore, no additional comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 664-8866),




                                             Paull. Granetto
                                             Assist'ant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2009-066 (Project No. D2007-D000LD-0129.000)                         April 1, 2009


               Results in Brief: Marine Corps’ Management
               of the Recovery and Reset Programs

                                                        In addition, about $1.9 billion in requirements
What We Did                                             were not prioritized and $138 million were not
                                                        traceable to supporting documents. We
We evaluated the effectiveness of the Marine            identified an internal control weakness in that
Corps’ recovery and reset programs for selected         the Marine Corps officials did not follow the
equipment. Specifically, we examined how the            established guidance or provide sufficient
Marine Corps met its equipment requirements             oversight to ensure compliance with the
through the recovery and reset programs; that is,       guidance. As a result, the Marine Corps
whether it effectively repaired or replaced             requirements for $383.3 million in supplemental
selected equipment and whether it used                  funds may have been put to better use, and
supplemental funds for their intended purpose.          $138 million were unsupported.
What We Found                                           What We Recommend
The Marine Corps recovery and reset efforts for         We recommend that the Director, Program
the items of equipment reviewed were generally          Objectives Memorandum Branch, Marine Corps
effective. For the recovery program, the Marine         Combat Development Command validate
Corps received the supplemental funds it                equipment requirements to ensure that the
requested in FY 2007 and effectively                    requests for future supplemental funds exclude
overhauled the items of equipment we reviewed.          low-priority requirements and anticipated
                                                        combat losses, use accurate unit prices, do not
For the reset program, the Marine Corps also            exceed approved acquisition objectives, and are
received the supplemental funds it requested            prioritized and documented.
from Congress for FY 2007. Further, the
equipment requirement computations were                 We also recommend that the Deputy
supported in the Total Force Structure                  Commandant, Programs and Resources,
Management System database.                             document changes made to the original funding
                                                        requests submitted by the Combat Development
In addition, most of the $6.9 billion in                Command and ensure that priorities are
supplemental procurement fund requirements              assigned.
for FY 2007 were supported by documentation
that included justifications and priorities.
However, $383.3 million in requirements, or             Management Comments and
approximately 5.6 percent of the supplemental           Our Response
funds requested, did not meet DoD or Marine             The Marine Corps agreed with the
Corps guidance for inclusion in its supplemental        recommendations. They initiated actions to
funds request.                                          have supplemental fund requirements
Specifically, the Marine Corps requested:                    prioritized and meet DoD guidelines,
    $266.6 million in requirements that the                 include only actual combat losses,
       Marine Corps categorized as low priority              use accurate and supported unit prices,
       and desirable but not essential;                      not exceed approved requirements, and
    $61.8 million in estimated, not actual,                 be traceable to supporting documents.
       combat losses;
                                                        The Marine Corps comments were responsive
    $29.9 million in requirements that were            and meet the intent of the recommendations.
       based on inaccurate unit prices; and             The full text of these comments appears in the
    $25 million in requirements that                   Management Comments section of the report.
       exceeded approved requirements.

                                                    i
Report No. D-2009-066 (Project No. D2007-D000LD-0129.000)          April 1, 2009

Recommendations Table
                                  Recommendation            No Additional Comments
Management                        Requiring Comment         Required
Director, Program Objectives
Memorandum Branch, Marine Corps                                         1.
Combat Development Command
Deputy Commandant, Programs and
                                                                        2.
Resources




                                             ii
Table of Contents

Results in Brief                                                      i

Introduction                                                          1

       Objectives                                                     1
       Background                                                     1
       Recovery Program Funding and Overhaul                          4
       Review of Internal Controls                                    5

Finding. Requests for Supplemental Funds for the Reset Program
         Did Not Always Follow Guidance                               7

       Management Comments on the Finding and Our Response           14
       Recommendations, Management Comments, and Our Response        16

Appendices

       A. Scope and Methodology                                      19
              Prior Coverage                                         20
       B. Nine Items of Equipment Selected for Review                23
       C. Funding and Support for Equipment Requirements             27
       D. Equipment Requirements and Funding Determination Process   31
       E. Requirements Based on Estimated Combat Losses              33
       F. Requirements Based on Inaccurate Unit Prices               35
       G. Requirements in Excess of Approved Quantities              37
       H. Requirements Not Traceable to Supporting Documents         39

Management Comments

       Marine Corps                                                  41
Introduction
Operations in Iraq and Afghanistan have placed increasing demands on equipment that
are beyond what is needed during training or home-station operations. The demands
arise from higher usage rates, extended operations in harsh environmental conditions, and
the losses sustained in combat operations. These demands on equipment result in higher
maintenance, repair, and replacement costs. We examined the Marine Corps recovery
and reset programs to determine whether they were working as intended.

Objectives
Our overall objective was to evaluate the effectiveness of the Marine Corps’ recovery and
reset programs for selected equipment. Specifically, we examined how the Marine Corps
met its equipment requirements through the recovery and reset programs; that is, whether
it effectively repaired or replaced selected equipment and whether it used supplemental
funds for their intended purpose. See Appendix A for a discussion of the scope and
methodology and prior coverage related to the objective.

Background
This report uses the terms used by the Marine Corps and considers reset and recovery to
be two separate programs. The Marine Corps commonly refers to depot-level repairing
and maintaining equipment as recovery. The recovery program is a major overhaul or
complete rebuilding of parts, assemblies, subassemblies, and end items to restore
equipment to a mission-capable status. Reset means restoring combat capability to pre-
Global War on Terror (GWOT) conditions. The Marine Corps commonly uses the term
reset to refer to the procurement of equipment.

Initially, we judgmentally selected four items of ground equipment to audit. They
included the Light Armored Vehicle-25mm, Reverse Osmosis Water Purification Unit,
radio test set, and the telephone switching unit. We expanded our sample to nine items to
incorporate newer models. The nine items of equipment include: one old and three new
telephone switching units, two radio test sets, two water purification systems, and the
light armored vehicle-25 mm. Appendix B illustrates eight of the items; we were unable
to locate a picture of the old switching system. During December 2007 and
January 2008, we obtained the total approved quantity recorded in the database for the
nine items and verified that the approved quantity was supported by individual tables of
organization and equipment. For results of our comparison, see Appendix C.

There are five offices involved in both the recovery and reset programs. We include a
brief description of the responsibilities of those offices below. Also, to compensate for
the higher repair and overhaul and procurement costs incurred during GWOT, DoD has
requested an emergency supplemental appropriation from Congress. Those supplemental
funds are discussed in the following paragraphs along with DoD and Marine Corps
guidance on the use of supplemental funds. Funding and overhaul for the recovery
program are discussed beginning on page 4. The finding in the report discusses only the



                                            1
reset program and shows that, in some cases, requests for supplemental funds did not
follow DoD or Marine Corps guidance. Funding and support for equipment requirements
are discussed in Appendix C.

Marine Corps Responsibilities
The following offices are responsible to the Commandant of the Marine Corps for
matters of acquisition, budget, logistics, and repair and overhaul of equipment.

      The Marine Corps Combat Development Command is responsible for the
       implementation, execution, and management of the combat development process.
       One of its primary functions for supplemental funding is determining equipment
       requirements and validating the quantities requested. The process works as follows.

            Integration officers within the Command develop the requirements for the
             equipment they manage and submit them to the Program Objectives
             Memorandum Branch within the Command.

            The Program Objectives Memorandum Branch consolidates the
             supplemental requirements and submits them to the Deputy Commandant,
             Programs and Resources.

      The Marine Corps Systems Command is the principal agent for acquiring and
       sustaining systems and equipment used by the operating forces to accomplish
       their mission.

      The Marine Corps Programs and Resources Department is the principal staff
       agency responsible for developing and defending the Marine Corps financial
       requirements, policies, and programs, including budget oversight.

      The Deputy Commandant, Installations and Logistics acts on behalf of the
       Commandant in matters of logistics policies, including maintaining the GWOT
       Attrition Summary Report.

      The Marine Corps Logistics Command provides integrated logistics management
       oversight, including the depot-level repair and overhaul of equipment and the
       strategic pre-positioning and planning of equipment capability in support of the
       operating forces. The repair and overhaul of equipment is primarily accomplished
       at the Maintenance Centers in Albany, Georgia, and Barstow, California.

Supplemental Funds
To compensate for the higher repair and overhaul and procurement costs incurred during
GWOT, DoD has requested an emergency supplemental appropriation from Congress.
Emergency supplemental appropriations for procurements are used to fund the
incremental costs above the baseline budget that are necessary to replace equipment
needed for ongoing operations. Emergency supplemental appropriations for operation
and maintenance are used to fund the incremental costs above the baseline budget that are


                                           2
necessary to repair and overhaul equipment. The FY 2007 supplemental consisted of two
appropriations: the bridge supplemental and the full supplemental. To avoid a potential
interruption in funding, which would have an adverse impact on the warfighter, Congress
provided the Marine Corps with a 6-month bridge appropriation to cover the cost of
combat operations for the first 6 months of the fiscal year, until full-year appropriations
become available.

For FY 2007, the Marine Corps requested approximately $6.9 billion in supplemental
procurement funding. Congress appropriated approximately $7.2 billion, or more than
100 percent of the supplemental funds requested. The $7.2 billion was in addition to the
$891 million that Congress provided the Marine Corps in its annual or baseline
procurement budget. See Appendix D for the process the Marine Corps uses to
determine equipment and supplemental fund requirements.

DoD and Marine Corps Guidance
On July 19, 2006, the Under Secretary of Defense (Comptroller) (USD[C]) issued a
memorandum, “Fiscal Year 2008-2013 Program and Budget Review,” which related to
budgeting and included supplemental funding guidance for FY 2007. The guidance
stated that supplemental funds would address only those incremental costs that are
“emergency” in nature and specifically required to prosecute mission objectives during
the fiscal year. The guidance further stated that submitting agencies are required to
assign a numeric priority ranking that would enable USD(C) to determine the importance
of new requirements. Also, the guidance provided that only actual combat losses should
be included in the supplemental fund request.

On June 1, 2006, the Marine Corps Deputy Commandant for Programs and Resources
issued a memorandum “Revalidation of Global War on Terrorism (GWOT) Reset and
Cost of War Requirements.” The memorandum required Marine Corps activities to
provide specific data elements (item name, budget information, cost breakdown, quantity,
and total dollar amounts as well as who would be responsible for executing the funding)
when requesting FY 2007 supplemental funding. In addition, all procurement costs for
new equipment were to be supported by an updated approved acquisition objective,
which was updated to reflect the current GWOT requirements. The approved acquisition
objective is the total quantity of an item that is authorized by the Commanding General,
Combat Development Command to equip and sustain the force. The guidance further
directed that the requests for supplemental funds include only “bona fide” documented
requirements for items necessary to maintain and sustain both current and future
readiness rates within the Marine Corps. In addition, the FY 2007 guidance required
activities to prioritize equipment requirements as either high, medium, or low priority and
to include only actual combat losses in the supplemental fund request.

Marine Corps Order 4490.1, “Ground Class VII Materiel Requirements Determination;
Approved Acquisition Objective (AAO),” May 7, 1997, provides the policy for
determining materiel requirements for ground Class VII equipment (principal end items).
The order described the methodology for calculating the maintenance float allowance and
the war reserve materiel requirements. The maintenance float represents the quantity of


                                             3
reserve equipment that allows Marine Corps units to maintain their readiness posture
while repair and overhaul is being done. The war reserve is the quantity of materiel
amassed in peacetime to meet the increase in military requirements upon an outbreak of
war. War reserves are intended to provide the interim support essential to sustain
operations until resupply can be effected. The order also prescribes that equipment is
authorized to be pre-positioned on maritime ships and in Norway for contingency
operations.

Recovery Program Funding and Overhaul
Funding
For FY 2007, the Marine Corps received all of the supplemental operation and
maintenance funds that it requested for depot repair and overhaul. Congress appropriated
$447.3 million in supplemental operation and maintenance funds to repair and overhaul
equipment. This was is in addition to the $87.9 million provided to the Marine Corps in
the annual or baseline budget.1 For the four items of equipment2 we selected for review
under the recovery program, the Marine Corps Logistics Command had requested a total
of $4.1 million in supplemental funds for repair and overhaul. However, the
requirements and needs of the warfighter changed, and the Logistics Command Programs
and Resources Department moved approximately $45.5 million from other planned
equipment repairs to repair or overhaul two of the four items of equipment included in
our audit. Approximately $44.3 million and $1.2 million, respectively, was moved to
repair or overhaul 98 Light Armored Vehicles-25mm (LAV-25s) and seven additional
Reverse Osmosis Water Purification Units. In addition, approximately $1.1 million was
moved from repairing or overhauling radio test sets and telephone switching units to
items of equipment not included in our audit.

Overhaul
For the recovery program, the Marine Corps effectively overhauled the items of
equipment we reviewed. Our examination of planned FY 2007 work schedules and
repair records at Albany, Georgia, and Barstow, California, Maintenance Centers showed
that all four items of equipment were scheduled to be repaired during FY 2007. The
Albany Maintenance Center had successfully repaired or overhauled 77 units for the four
items, while the records for the Barstow Maintenance Center showed that from our
sample of four items, only the LAV-25 was repaired or overhauled. Our discussion with
a funding representative of the Logistics Command and review of a production report
obtained from the Logistics Command in June 2008 showed that the Barstow
Maintenance Center overhauled 51 LAV-25s using FY 2007 supplemental funds.

To determine the quality of work performed by the two Maintenance Centers, we
examined the Product Quality Deficiency Report for the 1-year period ending


1
  The annual or baseline budget funds equipment maintenance for nondeployed equipment and for longer
term equipment requirements.
2
  The four items include the Light Armored Vehicle-25mm, Reverse Osmosis Water Purification Unit,
radio test set, and the telephone switching unit.


                                                  4
September 2007. The report is generated from a database that includes such fields as the
item of equipment, deficiency description, and actions required to close the deficiency. It
also identifies a defect or nonconforming condition detected on new or newly reworked
Government-owned products, premature equipment failures, and products that do not
fulfill their expected purpose because of deficiencies in design, specification, material,
manufacturing, and workmanship.

Of the 1,707 deficiencies reported in the product quality database, 156 were applicable to
three of the four items we selected for review. Of the 156, only 14 were attributed to the
depot repairs and overhaul, and none of the 14 was considered a critical defect that could
cause death, injury, severe occupational illness, or major damage to a weapon system.
For example, one of the 14 deficiencies involved a low-battery power problem with the
fire suppression system used on the LAV-25. An internal investigation recommended
that maintenance personnel test the suppression system using the vehicle power when the
test set battery is not fully charged.

Review of Internal Controls
We identified an internal control weakness for the Marine Corps in the request for
FY 2007 supplemental funds to meet requirements for the acquisition of new equipment
as defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
Procedures,” January 4, 2006. The Marine Corps request sometimes included
requirements that:

          did not satisfy DoD guidance to be emergency in nature and specifically
           required to prosecute mission objectives;
          were based on anticipated, not actual, combat losses;
          were computed using inaccurate unit prices;
          were in excess of the approved requirements; and
          either were not prioritized or were not traceable to supporting documents.

Implementing Recommendations 1 and 2 should improve the Marine Corps process for
determining supplemental fund requests to acquire only needed equipment. A copy of
the report will be provided to the senior Marine Corps official responsible for internal
controls.




                                             5
Finding. Requests for Supplemental Funds for
the Reset Program Did Not Always Follow
Guidance
Approximately $383.3 million, or 5.6 percent, of the $6.9 billion in supplemental procurement fund
requirements for FY 2007 that were requested did not meet DoD or Marine Corps guidance for
inclusion in its supplemental funds request.

Specifically, the Marine Corps requested:

      $266.6 million in requirements that it categorized as low priority and desirable but not
       essential and deferrable until the following year without significant impact on combat
       operations,
      $61.8 million in estimated combat losses that exceeded actual losses recorded in the
       database the Marine Corps used to track battle casualties,
      $29.9 million in requirements that were based on inaccurate unit prices, and
      $25 million in requirements that exceeded approved acquisition objectives for 19 items of
       equipment.

In addition, about $1.9 billion in requirements were not prioritized, and $138 million was not
traceable to supporting documents. This occurred because Marine Corps officials did not follow
the established guidance or provide sufficient oversight to ensure compliance with the guidance.
As a result, the Marine Corps requirements for $383.3 million in FY 2007 supplemental funds
may have been put to better use, and $138 million were unsupported.

Requests Included Low-Priority and Nonprioritized
Requirements
The FY 2007 supplemental request for $6.9 billion included approximately $266.6 million in
requirements that the Marine Corps identified as a low priority, not emergency in nature, and
often supported by justifications stating that not funding the requirements would have minimal, if
any, impact on operations. In addition, about $1.9 billion in requirements were not prioritized.

Low-Priority Requirements
Our audit showed that the Marine Corps identified approximately $266.6 million in supplemental
fund requirements as a low priority. For example, the Marine Corps requested $3.9 million in
the bridge supplemental for 410 3/4-ton, two-wheeled chassis trailers. The justifications stated
that not funding the requirement would have a low impact. In our opinion, this requirement
clearly was not emergency in nature, and along with the other $262.7 million low-priority
requirements, should not have been included in the supplemental fund request. Only one of the
nine items selected for review (three radio test sets valued at $78,000) was categorized as a low
priority and included in the $266.6 million.




                                                7
The DoD guidance of July 19, 2006, issued by USD(C) requires the Services to prioritize their
requirements and only include those that are emergency in nature and specifically required to
prosecute mission objectives during the fiscal year. Furthermore, the June 1, 2006, Marine
Corps guidance issued by the Deputy Commandant for Programs and Resources requires
prioritizing requirements as high, medium, or low. High priority is defined as an item that is
essential to sustaining combat operations. Significant disruption to current operations would be
experienced if these items were not funded. Medium is defined as an item with important impact
on combat operations or those items previously determined necessary to reset the force. Low
priority is defined as an item that is desirable but not essential and deferrable until the following
fiscal year, if necessary, without significant impact on combat operations.

A Marine Corps official stated that the FY 2007 guidance pertaining to supplemental funds states
that only bona fide documented requirements for items necessary to maintain and sustain both
current and future readiness rates within the Marine Corps should be included. The official also
stated that it would seem from that perspective that, generally, some items that were not
emergency in nature could be required to ensure the sustainment of future equipment readiness
rates. Furthermore, although some equipment might be perceived as a relatively low priority to
the immediate fight, it could be important for long-term equipment readiness.

We agree that some items could be important to long-term equipment readiness. However,
requesting funds for items that are not specifically required to prosecute mission objectives
during the fiscal year is contrary to DoD guidance. The Marine Corps Combat Development
Command should take steps to ensure that future requests for supplemental funding are
prioritized and do not include low-priority requirements.

Requirements Not Prioritized
About $1.9 billion of supplemental fund requirements were not prioritized as required by DoD
and Marine Corps guidance. Our review showed that $869.7 million in the bridge supplemental
and $1 billion in the full supplemental did not have priorities assigned. For example, in the
bridge supplemental, the Marine Corps did not prioritize the requirement for 192 Truck,
Tractors, 7 ton without a winch, valued at $51.9 million. Of the nine items selected for review,
two radio test sets and a telephone switching unit valued at $398,846 were included in the
$1.9 billion.

Both the DoD guidance of July 19, 2006, issued by USD(C) and the Marine Corps guidance of
June 1, 2006, issued by the Deputy Commandant for Programs and Resources require
prioritizing requirements. The Marine Corps Combat Development Command is the responsible
activity for assigning priorities for each requirement.

Marine Corps officials told us that the requirements that were not prioritized in the bridge
supplemental reflected what they needed later in the fiscal year versus sooner and did not relate
to criticality of the requirement. Furthermore, they did not want to give the impression that one
item of equipment was more important than another.




                                                 8
Assigning priorities gives senior officials the opportunity to rank equipment requirements when
resources are scarce and ensures that future funds are requested for only bona fide requirements. To
ensure the latter, officials from the Marine Corps Programs and Resources Department need to
ensure that all requirements are prioritized when requesting supplemental funds.

Requirements Included Estimated Combat Losses
The Marine Corps bridge supplemental request for FY 2007 included $61.8 million in estimated
combat losses that exceeded actual losses recorded in the database that the Marine Corps used to
track equipment destroyed or heavily damaged in battle. Of the nine items of equipment we
reviewed, the Marine Corps included anticipated combat losses in the requirements computation
for the LAV-25. The Marine Corps full supplemental request for FY 2007 did not identify
whether requirements included combat losses. Consequently, we could not determine whether
any of the $2.1 billion requested in the full supplemental included requirements for actual or
estimated combat losses.

Estimated Losses on LAV-25s
The Marine Corps requested and received approximately $10 million in supplemental funds for
replacing four LAV-25s that were not actual combat losses. As of May 2007, the Marine Corps
awarded contracts through the Army to replace 15 LAV-25s that were categorized as war losses.
However, the Marine Corps had also issued a Military Interdepartmental Purchase Request of
$12.5 million to the Army in November 2006 to procure five additional combat loss LAV-25s.
Subsequently, our review of the bridge supplemental request for FY 2007 showed that
$12.5 million was requested to replace five combat loss LAV-25s at a unit cost of $2.5 million.
Considering the 15 combat loss LAV-25s already on contract at the time, the request to fund five
more combat losses indicated a total of 20 combat losses. However, the GWOT Attrition
Summary Report used by the Marine Corps Installations and Logistics Department to track
combat losses showed only 16 of the LAV-25s had been destroyed in battle as of June 2007.
Consequently, the request included $10 million for four combat loss LAV-25s that exceeded the
number on the Attrition Report.

Estimated Combat Losses for FY 2007
Because of what we learned about the requests for replacement LAV-25s, we expanded our
sample to include all combat losses included in the bridge supplemental request for FY 2007.
Our audit showed that the Marine Corps requested a total of $90.2 million for the replacement of
combat losses representing 132 items of equipment. We compared the 132 items of equipment
with the GWOT Attrition Summary Report dated June 2007. We identified 66 items of
equipment for which estimated combat losses exceeded the actual losses shown on the Attrition
Report. For these items, the Marine Corps requested $51.8 million for requirements that were in
excess of the actual losses. Appendix E is a listing of the 66 items of equipment.

For FY 2007, USD(C) issued a memorandum, “Fiscal Year 2008-2013 Program and Budget
Review,” dated July 19, 2006. The guidance issued in the memorandum also applied to
supplemental funding for FY 2007. It stated that supplemental funds would address only those
incremental costs that are emergency in nature and are specifically required to prosecute mission
objectives during the fiscal year. The guidance further stated that submitting agencies are



                                                9
required to assign a numeric priority ranking that enables USD(C) to determine the importance
of new requirements. Also, the guidance permits requirements for actual combat losses to be
included in the request for supplemental funding. It does not allow for estimated losses. To
confirm that the guidance was still applicable, we contacted a USD(C) official, who told us that
only actual combat losses, and not anticipated or estimated losses, should be included in
supplemental requests.

Marine Corps officials stated that because of the timeline between first budget submission to DoD
and final submission to Congress, which could range from 7 to 10 months, they have no choice but
to estimate losses. In addition, they stated that there has been a great deal of discussion with DoD
regarding combat losses on both the aviation side and the ground support side. Although they do
not necessarily agree with the DoD policy, they informed us that they used only actual combat
losses in preparing the FY 2009 request.

To ensure that future requests for supplemental funds include only actual combat losses, the
Program Objectives Memorandum Branch must validate the requirements they receive.

Requirements Were Computed Using Inaccurate Unit Prices
The FY 2007 supplemental fund requirements for some items were computed using inaccurate
unit prices. We looked at 41 items that were listed several times in the full supplemental
requirement to determine whether fund requirements for the items were computed using the
same price. The 41 items had fund requirements totaling $229.4 million and were listed, with
one exception, on a spreadsheet titled “battalion,” which was used to support the full
supplemental request.

Our review showed that $195.5 million in requirements for 28 of the 41 items were computed
using different unit prices. For example, supplemental fund requirements for the handheld
global positioning system were overstated by $29.9 million (see Table 1) because inaccurate and
unsupported unit prices were used to compute fund requirements for the systems. The bridge
supplemental request included requirements for 70 systems based on a unit price of $32,200.
Further, the full supplemental request included two separate requirements; one for 966 systems
based on a unit price of $32,200 and another for 966 systems based on a unit price of $100. The
unit price of $100 is what was shown in the Total Force Structure Management System
database.3 None of the nine items we selected for review were included in the 28 items.

Marine Corps guidance did not specifically address procedures for determining unit prices.
Regardless of the procedures used, we believe the unit prices should be accurate and supported.
When asked about the current unit price for the global positioning systems in August 2008,
Marine Corps Systems Command officials provided documentation showing that neither unit
price was correct. Although the database showed a standard unit price of $100, the contract that
was awarded in August 2007, showed the Marine Corps procured 56 of the items at a unit price
of $1,767. Furthermore, Combat Development Command officials stated that the unit price of



3
 The Total Force Structure Management System database is the repository for all Marine Corps peacetime and
wartime equipment requirements.


                                                      10
$32,200 was initially obtained from Systems Command in preparing the bridge supplemental
request. At the time, they thought the unit price appeared excessive, and a “discrepancy note”
was attached to the working spreadsheet. They further stated that the individual who prepared
the spreadsheet did not return to correct the unit price after generating a note to do so. As that
individual was no longer in the Command, officials could only assume that the $32,200 unit
price was a mistake.

Based on the contract unit price of $1,767, we estimated that supplemental fund requirements for
global positioning systems were overstated by $29.9 million, as shown in Table 1.

        Table 1. Overstated Requirements for Handheld Global Positioning Systems
                     Unit Price                        Requirements
 Equipment            Used in    Supplemental Contract     Using
  Control           Supplemental    Funds       Unit     Contract
  Number   Quantity   Request      Requested    Price      Price     Difference
   A0131    1,036     $32,200     $33,359,200  $1,767   $1,830,612
   A0131      966         100          96,600   1,767    1,706,922
   Total    2,002                 $33,455,800           $3,537,534  $29,918,266


Contract unit prices for seven other items were also significantly different from many of the
prices used in the supplemental fund request. We obtained contract unit prices for these items
and the global positioning system from the Marine Corps Systems Command in August 2008.
Supplemental fund requirements for the eight items varied largely based on the different unit
prices used to compute fund requirements for the items. Appendix F illustrates how requested
funds for the seven items appeared to be both overstated and understated because the unit prices
used in the request were significantly different from the contract prices paid for the item.
Overall, fund requirements for the seven items using contract prices were $127.3 million less
than requirements submitted. Marine Corps officials told us that, in some instances, the unit
price varies significantly, depending on when the contract is placed, who supplies the equipment,
and how many are requested.

We agree that unit prices vary depending on the quantity, vendors, and when the contract is placed;
however, the cost variance on some items was significant, which suggests that better monitoring of
the prices used in the supplemental request is needed. For example, the contract unit price for a
digital camera was $486, yet the unit prices of $2,500 and $14,000 were used for the item in the
supplemental fund request. These prices represent an increase of 514 percent and 2,881 percent
above the latest contract price. We did not review the methodology used to compute unit prices to
determine whether it was sound and based on data current at the time the supplemental requests
were prepared; however, considering the significant differences, we believe officials should do a
better job of monitoring the unit prices used in future supplemental requests.




                                                 11
Requirements Exceeded Approved Quantities
The Marine Corps request for FY 2007 supplemental funds included equipment requirements
totaling approximately $25 million that were in excess of those documented in the approvals for
19 items of equipment. In addition, a 2006 Naval Audit Service Report, N2006-0019, “United
States Marine Corps Demand on Equipment,” March 23, 2006, documented similar excess in the
Marine Corps’ FY 2005 supplemental funding request.

Requirements Determination Process
The Commanding General, Combat Development Command is responsible for computing
approved acquisition objectives and determining unfilled requirements. Unfilled requirements
are included in either the baseline or supplemental fund request. The total procurement quantity
should not exceed the difference between the approved quantity and those on-hand and on order.

Requirements in Excess of Approved Quantities
In April 2007, we judgmentally selected nine items of equipment and compared the approved
quantity with the on-hand, on order, and planned procurement quantities. Of the nine items, only
the Tactical Water Purification System requirements were greater than the approved amount.
Our review of the Planned Procurement Report, July 24, 2007, showed that the total authorized
quantity was 239 units for the Tactical Water Purification System. Our review of the contract
files disclosed that the Army Tank and Automotive and Armament Command had purchased a
total of 243 units before July 24, 2007. Further review showed that one unit was destroyed
during testing, leaving the Marine Corps with 242 units, or three more than the approved amount,
at a cost of $1.2 million.

On the basis of our sample results, we expanded our review to include all 504 items of
equipment for which the Marine Corps requested supplemental funds in FY 2007 and which had
an approved quantity recorded in the database. This review identified an additional 18 items of
equipment totaling $23.8 million where the units requested was greater than the number of units
approved and recorded in the database. For example, supplemental funds for a radio set (control
number A0118) included 4,274 units in excess of the number of units approved and recorded in
the database at a cost of $10.7 million. Marine Corps officials stated that the number of units
requested for the radio sets would not be considered excess because a higher quantity was
pending approval. A list of the 18 items of equipment is shown in Appendix G.

The Deputy Commandant for Programs and Resources issued a memorandum “Revalidation of
Global War on Terrorism (GWOT) Reset and Cost of War Requirements.” June 1, 2006, related
to supplemental funds. It stated that all procurement costs for new equipment were to be
supported by an updated approved acquisition objective. The approved acquisition objective is
the total quantity of an item that is authorized by the Commanding General, Combat
Development Command to equip and sustain the force. The guidance further directed that the
requests for supplemental funds include only “bona fide” documented requirements for items
necessary to maintain and sustain both current and future readiness rates within the Marine
Corps.




                                               12
The same conditions we identified were noted in a prior Naval Audit Service Report of
March 2006. The Naval Audit Service found in its March 23, 2006, report that the Marine Corps
requested $146.2 million in equipment that was in excess of the approved quantity for 26 items
in the FY 2005 supplemental request. The Naval Audit Service recommended and the Marine
Corps agreed to:

       validate the approved amounts for ground equipment and use that to develop the
        Program Objectives Memorandum and for future supplemental requests, and
       establish the reliability and integrity of the database by validating data entries.

As of March 2009, Naval Audit Service officials told us that the recommendations were still
open.

The Marine Corps Combat Development Command must now take action to ensure that requests
for future supplemental funds are for valid requirements. In addition, when the approved
quantities are updated, they are to be loaded into the database in a timely manner.

Requirements Were Not Traceable to Supporting Documents
About $138 million in adjustments made to the original budget submission for selected
equipment requirements could not be tracked to supporting documents.

On October 17, 2007, and November 9, 2007, Programs and Resources officials provided us with
spreadsheets that showed respective requirements of $4.8 billion and $2.1 billion for the
FY 2007 bridge and full supplemental requests. Officials told us that they had received these
requests from the Combat Development Command.

The Programs and Resources officials also provided us with two spreadsheets in August 2007
that they referred to as “side-by-sides.” They showed the total amounts requested for 47 budget
line items totaling $4.8 billion for the FY 2007 bridge supplemental and for 42 budget line items
totaling $2.1 billion for the FY 2007 full supplemental. Each line item could include several
different items of equipment. The nine items we sampled were in four separate line items. For
example, line item 203800 included eight different items of equipment, one of which was the
LAV-25. The other seven were different models or variations of the LAV family.

We compared the spreadsheets, by line item, with the side-by-sides. Requirements for the
42 line items that totaled $2.1 billion in the full supplemental agreed. However, requirements
were different for 32 of the 47 line items in the bridge supplemental, as illustrated in
Appendix H. Of the 32 line items, 25 were $138 million more than the original request
submitted by the Combat Development Command, and 7 were $138 million less. For example,
the Combat Development Command requested $15.3 million for Air Operations and C2 Systems,
and the request sent to Congress by the Programs and Resources Department was $35.3 million,
or $20 million more than the Combat Development Command request. For another example, the
Command requested $217.4 million for training devices. However, the request that Programs
and Resources sent to Congress was for $165.7 million, or $51.7 million less than requested.




                                                13
The June 1, 2006, Marine Corps guidance “Revalidation of Global War on Terrorism (GWOT)
Reset and Cost of War Requirements” requires that the request for supplemental funds include
only bona fide requirements supported by documentation. Further, we believe when changes are
made to the original request, the changes should be documented.

During our discussions with budget personnel at the Programs and Resources Department
regarding the $138 million difference, they could not explain the difference but stated that funds
requested were for requirements that fully existed. They were concerned about their inability to
explain the changes. They pointed out that the $138 million represented only 2 percent of the
total request, and should be viewed in that context. Furthermore, they stated that they have since
taken steps to implement the Contingency Operations Reporting System, which will provide
tracking of the supplemental request from infancy to submission.

We recognize that funding priorities and requirements change, and the Contingency Operations
Reporting System may aid in tracking who made changes to the original submission and why.
However, as we did not evaluate the adequacy of the reporting system, we are recommending
that the Marine Corps Programs and Resources Department take action to ensure that changes to
funding requirements are documented and supported.

Conclusions
Some requirements did not meet DoD or Marine Corps guidance for inclusion in the
supplemental fund requests because they were low priority and not emergency in nature, based
on estimated and not actual combat losses, and computed using inaccurate unit prices and for
quantities in excess of approved requirements. In addition, some requirements were not
prioritized and some could not be tracked to supporting documents.

According to DoD guidance, requirements that are not emergency in nature and estimated
combat losses should not be included in supplemental requirements. Also, requirements should
be computed using accurate unit prices, and not exceed approved amounts. Quantities in excess
of approved amounts are beyond what is needed to meet mission requirements. Further, all
requirements should be prioritized to provide senior officials the insight to rank equipment
requirements when resources are scarce. Retaining supporting documentation allows senior
officials to ensure that only bona fide, documented requirements are funded to sustain current
and future readiness rates. As a result of the Marine Corps’ actions, approximately
$383.3 million in FY 2007 supplemental funds may have been put to better use, and $138 million
was unsupported.

Management Comments on the Finding and Audit Response
The Marine Corps provided the following technical comments for consideration.

Low-Priority Items
The Deputy Commandant, Programs and Resources Department, Headquarters, Marine Corps
stated that the Marine Corps interprets the internal control environment associated with


                                               14
submission of low priority from a different perspective than ours. He stated that the USD(C)
asked that requirements that met the definition of low-priority items in the guidance be
designated as such. This designation does not make a requirement nonemergency. Congress
realized the impact of the war on the Service inventories and appropriated procurement funding
as part of the supplemental process. Because of the contracting and production lead times before
assets are delivered, they will not be immediately available in theater. Rather, the bulk of the
procurement replenishes assets that are currently being used in theater.

Our Response
DoD issued guidance July 19, 2006, that requires the Services to prioritize their requirements and
only include those that are emergency in nature and required to prosecute mission objectives
during the fiscal year. The Marine Corps guidance of June 1, 2006, requires prioritizing
requirements as high, medium, or low. Low priority is defined as an item that is desirable but
not essential and deferrable until the following fiscal year, if necessary, without significant
impact on combat operations. We agree that some items could be important to long-term
equipment readiness. However, requesting funds for items that are not specifically required to
prosecute mission objectives during the fiscal year is contrary to DoD guidance.

Prioritizing All Items
The Deputy Commandant, Programs and Resources Department, Headquarters Marine Corps
also stated that the Marine Corps strives to comply with Departmental guidance and that when
USD(C) calls for prioritized lists, the Marine Corps will comply and submit prioritized lists.

Our Response
We agree with the Marine Corps statements regarding prioritization, and as our audit showed,
more than 70 percent of the requested supplemental funds for FY 2007 were prioritized.

Unit Pricing
The Director, Logistics Plans, Policies, and Strategic Mobility Division, Installations and
Logistics Department, Headquarters, Marine Corps stated that the Marine Corps developed a
reset cost model in 2008 to estimate future reset costs in support of ground equipment reset
efforts. The Marine Corps uses these estimates to support reset budgeting and logistics planning
efforts. Further, it uses the latest acquisition cost to estimate procurement costs.

Each quarter, the Marine Corps collect and updates from the Marine Corps Systems Command,
the latest acquisition cost for every item recorded in the Total Force Structure Management
System database. It captures changes in acquisition costs and resets cost estimates accordingly.
If the latest acquisition cost is not available, it uses the Federal Logistics Information System unit
costs in the reset cost model.

Our Response
We commend the Marine Corps for developing and using the reset cost model, and we believe
that if it updates as required, requests for future supplemental funds will be more in line with the
true replacement costs for the items.



                                                 15
Recommendations, Management Comments, and Our
Response
1. We recommend that the Director of the Program Objectives Memorandum Branch,
Marine Corps Combat Development Command validate investment requirements to
ensure that the requests for future supplemental funds exclude low-priority requirements
and anticipated combat losses, use accurate and supported unit prices, do not exceed
approved acquisition objectives, and are prioritized and documented.

Marine Corps Combat Development Command Comments
The Director of the Program Objectives Memorandum Branch, Marine Corps Combat
Development Command agreed with the recommendation and stated the following.

      Accurate and supported unit prices should be used, and the branch now has the Marine
       Corps Systems Command verify unit prices.
      The Marine Corps should not exceed the approved acquisition objective. At the time of
       the FY 2007 supplemental request, the Total Force Structure Management System used
       to record and officially maintain the approved acquisition objective had not yet been
       validated. The validation process started after the FY 2007 supplemental request was
       completed.
      Only actual combat losses should be included. This was corrected during the FY 2008
       supplemental request by using a category of combat attrition, which covered equipment
       that was wearing out faster than the original life-cycle cost estimates because of extra
       armor, weight, and wear and tear of being in theater. Current supplemental submissions
       reflect actual losses reported by Headquarters Marine Corps Installation and Logistics.
      The branch will only prioritize and send forward items meeting the standards and
       guidelines established by USD(C).

Our Response
The comments of the Director, Program Objectives Memorandum Branch, Marine Corps
Combat Development Command were responsive and conformed to requirements. The actions
planned or taken satisfy the intent of the recommendation.

2. We recommend that the Deputy Commandant, Programs and Resources document any
changes made to the original funding requests submitted by the Marine Corps Combat
Development Command and ensure that priorities are assigned.

Marine Corps Programs and Resources Comments
The Deputy Commandant, Programs and Resources Department agreed with the
recommendation and stated that the Department will document all changes made to the original
submission by the Marine Corps Combat Development Command. Further, the Marine Corps
will comply with USD(C) guidance regarding the requirement to prioritize.




                                              16
Our Response
The comments of the Deputy Commandant, Marine Corps Programs and Resources were
responsive and conformed to requirements. The actions planned or taken satisfy the intent of the
recommendation.




                                               17
Appendix A. Scope and Methodology
We conducted this performance audit from April 2007 through January 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We evaluated the effectiveness of the Marine Corps’ management of the recovery and
reset programs for selected ground equipment. We examined how the Marine Corps met
its ground equipment requirements through the recovery and reset programs; that is,
whether it effectively repaired or replaced selected equipment and whether it used
supplemental funds for their intended purpose.

The Marine Corps is responsible for the overall management of its ground equipment,
while the Navy has responsibility for managing the Marine Corps aviation equipment.
Initially, we judgmentally selected four items of ground equipment to audit: the
LAV-25mm, Reverse Osmosis Water Purification Unit, telephone switching unit, and the
radio test set. The original four items were selected because funding documents showed
that both operation and maintenance and procurement funds were used to repair and
procure these items. However, as three of the four items were being replaced with newer
models, we expanded our sample to include nine items of equipment.

We interviewed personnel responsible for developing the quantities and amounts required
as well as those responsible for the funding and acquisition of the selected equipment.
The offices included in our audit were the Marine Corps Headquarters, Installation and
Logistics, Programs and Resources, Combat Development Command, and Systems
Command. We also interviewed personnel from the Logistics Command and
Maintenance Centers at Albany, Georgia, and Barstow, California.

We reviewed the guidance issued by the DoD and Marine Corps on supplemental fund
requirements for FY 2007 and evaluated whether the Marine Corps’ requests for
supplemental funds complied with that guidance. Specifically, we reviewed requests for
$6.9 billion in supplemental funds to determine whether the requests:

    excluded requirements that were desirable but not essential and deferrable until the
     following year,
    included only actual combat losses,
    used accurate, supported unit prices,
    did not exceed approved quantities, and
    were prioritized and traceable to supporting documents.




                                           19
The scope of our review of compliance with different parts of the guidance varied. For
two parts evaluated (to determine whether requests were prioritized and traceable to
supporting documents), we reviewed the entire $6.9 billion in requirements.
For other parts of the guidance we evaluated, the scope of review did not include the
entire $6.9 billion. For example, to evaluate whether requests included only actual
combat losses, we reviewed bridge supplemental requirements of $4.8 billion. We could
not evaluate whether the Marine Corps’ full supplemental request of $2.1 billion included
only actual combat losses because that request did not identify requirements that were
combat losses. Details on the scope of our review of compliance with the guidance
evaluated are discussed in the finding section of the report.

In addition, we examined selected budget, funding, and contractual documents, along
with maintenance records related to funding, scheduling, and repairing equipment.

Use of Computer-Processed Data
For the reset portion of the audit, we relied on computer-processed data to perform our
analysis. Our use of computer-processed data included spreadsheets provided by the
Programs and Resources Department justifying requirements for the FY 2007 bridge and
full supplemental requests; the GWOT Attrition Summary Report provided by the
Installation and Logistics Department; selected information from the Total Force
Structure Management System provided by the Combat Development Command; and the
spreadsheet for the Command’s FY 2007 full supplemental request, which it submitted to
Programs and Resources. We performed limited tests on the reliability of the data and
found that, with the exception of some unit prices used in supplemental fund requests and
shown in the Total Force Structure Management System, the data were reliable.

For the recovery portion of the audit, we relied on the Product Quality Deficiency Report
for analyzing the types of equipment defects being reported by the warfighter. The report
was generated from the information contained in the Product Quality Deficiency
Database. We did not test for reliability of the data contained in that database.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the Naval
Audit Service have issued seven reports discussing the Marine Corps’ reset and recovery
programs. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Naval Audit Service reports are listed at
http://secnavportal.donhq.navy.mil/portal/server.pt?space=CommunityPage&control=Set
Community&CommunityID=303.

GAO
GAO Report No. GAO-07-814, “Army and Marine Corps Cannot Be Assured That
Equipment Reset Strategies Will Sustain Equipment Availability While Meeting Ongoing
Operational Requirements,” September 19, 2007




                                           20
GAO Report No. GAO-07-76, “Fiscal Year 2006 Obligation Rates Are Within Funding
Levels and Significant Multiyear Procurement Funds Will Likely Remain Available for
Use in Fiscal Year 2007,” November 13, 2006

GAO Report No. GAO-06-604T, “Preliminary Observations on Equipment Reset
Challenges and Issues for the Army and Marine Corps,” March 30, 2006

GAO Report No. GAO-05-767, “DoD Should Consider All Funds Requested From the
War When Determining Needs and Covering Expenses,” September 28, 2005

GAO Report No. GAO-05-427, “Better Management and Oversight of Prepositioning
Programs Needed to Reduce Risk and Improve Programs,” September 6, 2005

GAO Report No. GAO-05-293, “Process to Estimate and Track Equipment
Reconstitution Costs Can Be Improved,” May 5, 2005

Navy
Naval Audit Service Report No. N2006-0019, “United States Marine Corps Demand on
Equipment,” March 23, 2006




                                         21
Appendix B. Nine Items of Equipment Selected
for Review

     Radio Test Sets
                                                 This test set (A7082) is used at
                                                 fixed facilities, such as repair
                                                 depots and intermediate
                                                 maintenance facilities.




Source: DME Corp.




                          This handheld model (A7080) is
                          replacing the older test set and is
                          used by Marine Corps units in the
                          field.




       Source: Aeroflex




                                  23
Water Purification Systems
                                               This Army-managed item
                                               (B2604) is being phased out
                                               and replaced by the Tactical
                                               Water Purification System.




Source: Marine Corps Logistics Command

Reverse Osmosis Water Purification Unit




                                               This Army-managed system
                                               (B2605) is replacing the old
                                               system. It is a self-contained
                                               and mobile system capable of
                                               producing 1,500 gallons of
                                               potable water per hour from
                                               fresh, brackish, salt, and
                                               nuclear, biological, and
                                               chemical contaminated fresh
                                               water.




Source: SFA Inc

Tactical Water Purification System




                                          24
Telephone Switching Units
      A0124                  A0125                A0132




 Source: Marine Corps Systems Command

 The original telephone switching unit selected for review (A2508 –
 picture could not be located) is being replaced by three items of
 equipment.
    A0124: The Remote Subscriber Access Module extends
      telephone and dial-up services to remote subscribers.
    A0125: The Deployable End Office Suite provides basic circuit
      switching capability, subscriber access, and a call service
      attendant function.
    A0132: The Deployable Integrated Transport Suite is used in
      conjunction with the Deployable End Office Suite to provide
      bandwidth management, multiplexing, and technical control
      functions.
 Light Armored Vehicle-25mm

                                                           The LAV-25mm
                                                           (E0947) is an all-terrain,
                                                           all-weather vehicle with
                                                           night capabilities.
                                                           Source: Marine Corps
                                                           Systems Command




                                        25
Appendix C. Funding and Support for Equipment
Requirements
For the nine items reviewed, the Marine Corps received the supplemental funds it requested
from Congress for FY 2007. In addition, the Marine Corps computations for the items of
equipment we judgmentally selected for review were supported in the Total Force Structure
Management System database, which is the repository for all Marine Corps peacetime and
wartime equipment requirements.

All FY 2007 Supplemental Funds Requested for the Items
We Reviewed Were Received
For the nine items of equipment reviewed, the Marine Corps received the supplemental
funds it requested for FY 2007. We reviewed the budget line items in the supplemental
request for the nine items. The table shows the budget line item, item description, amount
requested and received, and equipment control numbers for items reviewed.

         Supplemental Funds Requested and Received by Budget Line Item
                                                             Amount                    Equipment Control
Budget Line          Item of Equipment                  Requested/Received             Numbers for Items
Item*                    Description                       (thousands)                    Reviewed**
                 LAV Product Improvement
203800                                                         $73,300                        E0947
                 Program
                 Repair and Test Equipment                                                    A7080
418100                                                         101,823
                                                                                              A7082
                 Communication Switching                                                      A0124
                 and Control Systems                                                          A0125
463400                                                         225,944
                                                                                              A0132
                                                                                              A2508
                 Bulk Liquid Equipment                                                        B2604
627400                                                           20,202
                                                                                              B2605
Total                                                          $421,269
*The budget line item represents a family of equipment. For example, item 627400 represents bulk liquid
equipment, which includes the tactical water purification system and water supply support equipment
associated with storage and distribution of potable water, such as tanks, pumps, showers, water heaters, and
water test sets.
**Appendix B provides a description of the items whose control numbers are listed in the table.

As illustrated in the table, the Marine Corps received 100 percent of the $421.3 million
requested for the line items that included the items of equipment we selected for audit. The
Combat Development Command provides the Programs and Resources Department with
supplemental fund requests by individual item of equipment and budget line item. The
Programs and Resources Department consolidates supplemental request totals by budget
line item and submits them to DoD, who in turn submits them to Congress for approval.
Congress approves procurement totals by budget line item and provides them on funding
documents through DoD to the Marine Corps Systems Command.


                                                     27
The table shows that the total amount of funds requested and received for the four budget
line items were equal. Our analysis and conclusion that the Marine Corps received the
supplemental funds it requested in FY 2007 for the nine items of equipment were based on
the fact that the amount of funds requested and received for the applicable budget line
items were identical.

Equipment Requirement Computations Were Supported
in the Total Force Structure Management Database
The Marine Corps computations for the items of equipment we judgmentally selected for
review were supported in the Total Force Structure Management System database.

The process begins when the Marine Corps identifies a need for new equipment or a
requirement to modify existing equipment. One of the first steps in the overall
management of a new or modified item of equipment is when the Combat Development
Command assigns a control number to the item for management and planning purposes.
For example, the LAV-25 is identified as control number E0947. Each item of equipment
is recorded in the Total Force Structure Management System database.

The database shows the quantity for each item authorized by the Commanding General,
Combat Development Command to equip and sustain the force. It includes:

          a listing of all authorized equipment for each Marine Corps unit depending upon
           its mission,
          the depot maintenance float allowance,
          the war reserve requirements, and
          the equipment authorized to be pre-positioned on maritime ships and in Norway
           for contingency operations.

Appendix D includes a flowchart depicting the equipment requirements and funding
determination process the Marine Corps uses for the acquisition of new equipment.

Database Validation
The database as of June 2007 showed that it contained approximately 2,099 principal end
items of equipment. Of those items, 1,685, or 80 percent, had an approved quantity.
Marine Corps officials told us that they were in the process of reviewing, assigning, and
updating the tables of organization and equipment and the database for the remaining
414 principal end items of equipment. These tables show the authorized quantities of
equipment that the Marine Corps Combat Development Command develops for each
Marine Corps unit depending upon its mission. The officials anticipated completing the
review by early 2009.




                                            28
We judgmentally selected nine items of equipment to examine the approved quantity along
with the supporting documentation.1 Appendix B illustrates eight of the items; we were
unable to locate a picture of the old switching system. During December 2007 and
January 2008, we obtained the total approved quantity recorded in the database for the nine
items and verified that the approved quantity was supported by individual tables of
organization and equipment. Specifically, we compared approved quantities to a
judgmental sample of 160 of 1,214 tables that included the items. Our comparisons found
no discrepancies.

For example, the Approved Acquisition Objective Planned Procurement Report showed an
authorized quantity of 548 for the LAV-25s. The 548 represented quantities that were
authorized on 36 tables of organization and equipment. We judgmentally selected
20 tables representing an authorized quantity of 352 and verified that the quantity agreed
with the recorded amount shown on the Planned Procurement Report.




1
 We judgmentally selected the nine items of equipment to audit: one old and three new telephone switching
units, two radio test sets, two water purification systems, and the light armored vehicle-25 mm.


                                                   29
Appendix D. Equipment Requirements and
Funding Determination Process
This flowchart depicts the Marine Corps’ process for determining equipment and
supplemental funds requirements.



      Requirements            MCCDC subtracts from the             MCCDC submits                     MCSYSCOM returns
    (AAO) computed            AAO the stock on hand and        Procurement Quantity to               budgetary figures to
     and approved by           stock on order to arrive at        MCSYSCOM for                       MCCDC for budget
        MCCDC                    procurement quantity           pricing and evaluation                   submission
      (by TAMCN)                     (by TAMCN)                      (by TAMCN)                         (by TAMCN)




      OSD reviews                                                    Marine Corps P & R
                               Navy takes budgetary figures                                            MCCDC receives
        budgetary                                                          analyzes
                               for Ground Reset and adds in                                          budgetary information
     information and                                                   and summarizes
                                  Marine Corps Aviation                                                and forwards it to
    submits budget to                                               budgetary information
                                       information                                                    Marine Corps P & R
         Congress                                                  for Reset (Procurement)
                                        (by BLIN)                                                        (by TAMCN)
        (by BLIN)                                                   and forwards approved
                                                                       items (by BLIN)



                                                                                                  Marine Corps P & R
Congress Senate and House               OSD receives
                                                                Navy receives funding            receives funding from
 Committees review budget               funding from
                                                               from OSD and forwards             Navy, and forwards to
and make changes. Approve               Congress and
                                                                to Marine Corps P & R                MCCDC and
   Supplemental Budgets               forwards to Navy
                                                                     (by BLIN)                       MCSYSCOM
        (by BLIN)                        (by BLIN)
                                                                                                       (by BLIN)



 AAO-Approved Acquisition Objective                                                      MCCDC receives
 BLIN-Budget Line Item Number                                                              budgetary        MCSYSCOM receives
 MCCDC-Marine Corps Combat Development Command                                            information       supplemental funds for
 MCSYSCOM-Marine Corps Systems Command                                                     (by BLIN)             Procurement
 OSD-Office of the Secretary of Defense                                                                           (by BLIN)
 P & R- Marine Corps Programs and Resources
 TAMCN-Table of Authorized Materiel Control Number




                                                              31
Appendix E. Requirements Based on
Estimated Combat Losses
               Combat            Combat
Equipment     Losses in    Losses in GWOT
 Control    Supplemental   Attrition Summary    Quantity       Cost
 Number*    Requirements          Report       Difference   Difference
A0285            619                 0             619       $8,047,000
A1275              5                 0               5           37,950
A1957             11                 2               9          342,000
A2069              7                 2               5           90,000
A2070             39                27              12           53,076
A2079             33                11              22          616,000
A2542              1                 0               1           68,350
A2545              1                 0               1           68,350
A2560              2                 0               2           94,000
A2635             37                 2              35           35,000
A3252             17                12               5          670,000
A7021              4                 2               2            2,547
A7046              4                 0               4          120,320
A7055              5                 0               5           14,335
A7059              6                 1               5           11,900
A7060             19                 0              19          150,157
A7072             21                 6              15          180,585
A7081              6                 4               2           52,000
A7082             22                 2              20          520,000
A7596              8                 0               8        4,456,000
A7700             28                 0              28          461,440
A7705             12                 3               9           39,600
A7706             22                 3              19           93,100
A7900             16                 1              15           24,750
A8008              2                 0               2            2,150
A8023              9                 5               4           16,000
A8025             10                 5               5           20,000
A8082              2                 0               2           10,144
A8084              2                 0               2           20,800
B0471              2                 0               2           42,490
B0475             12                 6               6          137,280
B1016              5                 0               5          152,665
B1291             12                 0              12          168,000
B1300              1                 0               1            7,000
B1645              8                 7               1            9,750
B2464              1                 0               1           70,975


                                     33
                   Combat                  Combat
Equipment         Losses in          Losses in GWOT
  Control       Supplemental         Attrition Summary                 Quantity                 Cost
 Number*        Requirements                Report                    Difference             Difference
C7073                 4                        1                           3                     225,000
C7074                 2                        0                           2                     444,296
C7920                 2                        0                           2                      54,000
C7930                 2                        0                           2                     610,000
D0022
                       117                      0                          117                22,230,000
(D1158)
D0030
                        18                      0                          18                  3,420,000
(D1159)
D1002                   10                       1                           9                 1,440,000
E0139                    2                       1                           1                    12,017
E0207                   14                       3                          11                   550,000
E0325                    4                       0                           4                   247,164
E0960                  171                      94                          77                   273,024
E0994                   26                      25                           1                    18,590
E0998                   18                      17                           1                     9,000
E1048                   40                      24                          16                   384,000
E1123                    1                       0                           1                     2,200
E1158                  173                       8                         165                   932,250
E1159                   43                      26                          17                    59,500
E1378                    1                       0                           1                 2,748,846
E1460                   23                       9                          14                    85,400
E1475                    9                       6                           3                    19,215
E1761                    4                       3                           1                     1,200
E1762                   25                      18                           7                     3,500
E1779                  165                      30                         135                   202,500
E1900                   21                      14                           7                     3,094
E1911                    4                       0                           4                   160,000
E1947                    1                       0                           1                    78,324
E1976                   42                      11                          31                   598,486
E2070                    4                       1                           3                    20,817
E2208                    3                       0                           3                     5,850
E7900                    4                       0                           4                    12,400
Total                                                                                        $51,756,388

* Items of equipment are referred to as equipment control numbers for the purpose of this appendix.




                                                     34
Appendix F. Requirements Based on
Inaccurate Unit Prices
                                                                                  Supplemental
                              Unit Price                                              Fund
Equipment                      Used In           Supplemental        Contract     Requirements
 Control                     Supplemental           Funds              Unit          Using
 Number*       Quantity        Request            Requested           Price       Contract Price        Difference
                  6,301             $7,400         $46,627,400         $5,919       $37,295,619
A20447G             597              7,500           4,477,500          5,919          3,533,643
                    597              4,700           2,805,900          5,919          3,533,643
Subtotal          7,495                            $53,910,800                      $44,362,905           $9,547,895
                  4,980              $32,000      $159,360,000        $14,500       $72,210,000
A20687G
                     99               20,250         2,004,750         14,500          1,435,500
Subtotal          5,079                           $161,364,750                      $73,645,500          $87,719,250
                  6,739               $1,900       $12,804,100         $1,158        $7,803,762
A91002B             509                1,944           989,496          1,158            589,422
                    216                5,000         1,080,000          1,158            250,128
Subtotal          7,464                            $14,873,596                       $8,643,312           $6,230,284
                    689              $14,000        $9,646,000           $486           $334,854
B02827B
                     60                2,500           150,000            486             29,160
Subtotal            749                             $9,796,000                          $364,014          $9,431,986
                    220            $162,000        $35,640,000        $67,077       $14,756,940
D11587K
                     15              82,000          1,230,000         67,077          1,006,155
Subtotal            235                            $36,870,000                      $15,763,095          $21,106,905
                    234            $ 24,150        $ 5,651,100        $11,828        $2,767,752
E00127G
                     87             120,000         10,440,000         11,828          1,029,036
Subtotal            321                            $16,091,100                       $3,796,788          $12,294,312
Counter
Sniper
                       30          $300,000            $9,000,000    $949,337        $28,480,110
Vehicle
                        9          1,000,000            9,000,000     949,337          8,544,033
System**
Totals
Subtotal               39                          $18,000,000                       $37,024,143        $(19,024,143)
 Total                                            $310,906,246                      $183,599,757        $127,306,489

  * Items of equipment are referred to as equipment control numbers for the purpose of this appendix.
  ** The Counter Sniper Vehicle System did not have a control number assigned.




                                                  35
Appendix G. Requirements in Excess of
Approved Quantities

                               Quantity                            Number           Amount
Equipment                      On Hand          FY 2007           Exceeding       Exceeding
  Control       Approved        and On       Supplemental         Approved         Approved
 Number*       Quantity**        Order       Requirements          Quantity        Quantity
A0077              12              0                30                 18          $ 117,000
A0104              10              0                12                 2                   1,600
A0118            45338           22001           27611               4274           10,685,000
A0425             1836             0              1919                 83            1,254,744
A0501              33              0                41                 8                664,000
A0884               2              0                3                  1                490,000
A2043            18411           5007            13635                231            1,740,199
A3264              65              0               188                123            1,912,896
B0591              19              0                34                 15            1,650,000
B1300              30              0                31                 1                   7,000
C4180              16              0                40                 24                39,984
E0030            24248             0             34364              10116            3,601,360
E0207             412              0               436                 24            1,200,000
E0515              35              0                55                 20                71,400
E0870              21              0                63                 42               204,918
E1480               1              0                2                  1                   7,933
E2250             100              0               109                 9                140,612
N6180              12              0                26                 14                    280
 Total                                                                            $23,788,925
* Items of equipment are referred to as equipment control numbers for the purpose of this appendix.
**Approved quantities as of August 2006 from the Marine Requirements Oversight Council
and the approved quantities recorded in the database as of June 2007.




                                                   37
    Appendix H. Requirements Not Traceable to
    Supporting Documents
           Amount
Budget    Request by
 Line    Development                                    Request Sent                Cumulative
 Item     Command                 Description           to Congress    Difference   Difference
202100      $6,948,000   AAV7A1 PIP                       $39,448,000 $32,500,000
504500     492,991,000   5/4T Truck HMMWV (MYP)           521,321,000  28,330,000
464000      15,279,000   Air Operations C2 Systems         35,279,000  20,000,000
418100      88,674,000   Repair and Test Equipment         96,609,000   7,935,000
463300     872,391,000   Radio Systems                    879,969,000   7,578,000
                         Medium Tactical Vehicle
508800       7,925,000   Replacement                       15,226,000   7,301,000
                         Comm Switching & Control
463400     211,838,000   Systems                          218,671,000   6,833,000
646200      62,749,000   Material Handling Equipment       68,818,000   6,069,000
465200      38,982,000   Modification Kits                 43,185,000   4,203,000
493000     199,679,000   Night Vision Equipment           203,651,000   3,972,000
206100      75,517,000   Modification Kits                 78,266,000   2,749,000
                         Weapons & Combat
222000     120,581,000   Vehicles Under $5 Million        122,493,000   1,912,000
                         Family of Construction
654400      97,051,000   Equipment                         98,914,000   1,863,000
509700      91,326,000   Family of Tactical Trailers       92,807,000   1,481,000
627400      18,832,000   Bulk Liquid Equipment             20,174,000   1,342,000
636600      11,254,000   Power Equipment Assorted          12,569,000   1,315,000
473300      42,305,000   Fire Support System               43,265,000     960,000
301100      45,800,000   Javelin                           46,500,000     700,000
627700      37,158,000   Tactical Fuel Systems             37,455,000     297,000
312300     159,246,000   Modification Kits                159,434,000     188,000
667000      26,723,000   Items Less Than $5 Million        26,891,000     168,000
                         Env Cntrl Equipment
605400      23,431,000   Assorted                          23,598,000     167,000
233400      51,490,000   Modular Weapon System             51,590,000     100,000
                         Family of Internally
654500      10,800,000   Transport Vehicles (ITV)          10,845,000      45,000
665400               0   Modification Kits (Engineer)           7,000       7,000   $138,000,000
                         M1A1 Firepower
209500       1,154,000   Enhancements                       1,154,000          0
                         Weapons Enhancement
220800       2,703,000   Program                            2,703,000          0
221200     163,350,000   HIMARS                           163,350,000          0



                                            39
            Amount
Budget     Request by
 Line     Development                                   Request Sent                    Cumulative
 Item      Command                  Description         to Congress      Difference     Difference
                           Expeditionary Air Defense
300600        2,924,000    System                           2,924,000             0
419000      267,200,000    UOC                            267,200,000             0
                           Communication & Electric
463500       53,580,000    Infrastructure                  53,580,000             0
465000       21,093,000    Radar Systems                   21,093,000             0
                           Motor Transport
505000      163,600,000    Modifications                  163,600,000             0
                           Logistics Vehicle System
509300           48,000    Rep                                 48,000             0
523000          775,000    Items Less Than $5 Million         775,000             0
                           Amphibious Support
651800       28,257,000    Equipment                       28,257,000             0
652200        6,902,000    Field Medical Equipment          6,902,000             0
654300        7,741,000    Container Family                 7,741,000             0
654800       22,717,000    Bridge Boats                    22,717,000             0
                           Family of Field Feeding
661300         2,598,000   Systems                           2,598,000            0
                           Items Under $5 Million
462000       16,183,000    (Comm & Elec)                   14,183,000     -2,000,000
                           Intelligence Support
474700       89,212,000    Equipment                       81,720,000     -7,492,000
463100      112,126,000    Command Post Systems           102,357,000     -9,769,000
203800       93,300,000    LAV PIP                         73,300,000    -20,000,000
                           Common Computer
 463000       63,634,000   Resources                        40,162,000   -23,472,000
 652000      675,647,000   EOD Systems                     652,067,000   -23,580,000
 653200      217,353,000   Training Devices                165,653,000   -51,700,000   -$138,000,000
Total     $4,821,067,000                                $4,821,069,000        $2,000




                                              40
Marine Corps Comments




                 Click to add JPEG file




                                41
Click to add JPEG file




               42
Click to add JPEG file




               43
